DOE/IG-0510




               AUDIT             USE OF PERFORMANCE-BASED
              REPORT               INCENTIVES AT SELECTED
                                     DEPARTMENTAL SITES




                                         JULY 2001




    U.S. DEPARTMENT OF ENERGY
   OFFICE OF INSPECTOR GENERAL
     OFFICE OF AUDIT SERVICES
                                       Department of Energy
                                        Washington , DC 20585




                                                 July 9, 2001


MEMORANDUM FOR THE SECRETARY

FROM:                    Gregory H. Friedman (Signed)
                         Inspector General

SUBJECT:                 INFORMATION: Audit Report on “Use of Performance-Based Incentives at
                         Selected Departmental Sites”


BACKGROUND

The Department of Energy (Department) began to incorporate performance-based incentive fees into its
major management contracts after the 1994 Contract Reform report recommended the use of performance-
based management contracts. The performance-based incentive approach ties elements of the contractor’s
profits to the achievement of specific technical performance objectives, delivery schedules, or cost control
objectives. Thus, fees paid to contractors should bear a direct relationship to performance and require that
each incentive have objective performance metrics and an objective evaluation of contractor performance.
Successful use of performance-based incentives should also result in improved contractor performance.

The objective of the audit was to determine whether the Department’s use of performance-based incentives
has resulted in improved contractor performance at selected Departmental field sites.


RESULTS OF AUDIT

The Department did not utilize performance-based incentives in a manner that would consistently result in
improved contractor performance. Twelve of nineteen performance-based incentives selected for review at
the Savannah River Site and the Kansas City and Oak Ridge Y-12 Plants were not clearly designed to
facilitate such improvement. Some performance incentive fees were increased without a corresponding
increase in performance expectations. In other cases, the "challenge" to the contractor in the form of the
performance standard was lowered while the monetary incentive remained unchanged. In all cases, these
actions were taken without satisfactory explanation. Further, some incentives were established after the
expected outcome had been achieved.

We determined, based on available documentation, that field sites were not fully evaluating past performance
when negotiating recurring incentives and were not using appropriate processes to modify performance
metrics. Furthermore, the Department had not established a formal review and approval process for Program
Offices to ensure that negotiated performance-based incentives would improve contractor performance. As
such, we question whether the Department could have better used $5.3 million provided from 1997 to 2000
for the 12 performance-based incentives with which we found problems.
                                                     -2-

To address this condition, we recommended that the Department’s Acquisition Guide be revised to address
the conditions noted in the audit report. We also recommended that parallel program-specific guidance be
developed by the Offices of Environmental Management and Defense Programs.

The Office of Inspector General has previously reported problems in implementing performance-based
management contracting practices. In addition, my office has identified the issue of contract administration
as one of the top ten management challenges facing the Department today.


MANAGEMENT REACTION AND AUDITOR COMMENTS

Department officials disagreed with our finding and recommendations, asserting that no requirement
existed for individual incentives to improve contractor performance. Management believed that the goal of
performance-based incentives was to motivate the contractor to achieve specific work scope and potentially
help to improve contractor operations over the entire spectrum of the contract. Furthermore, management
did not believe that it was appropriate to evaluate the overall success of performance-based incentive
contracts by looking at individual incentives. Management also believed that the issues identified during
the audit were solely documentation issues.

The Office of Inspector General has a fundamental disagreement with management on this issue. To
illustrate where our positions differ, management expressed the view that it is inappropriate to draw general
conclusions on the effectiveness of the performance-based contracting scheme based on a review of
individual performance incentives. Yet, under the approach that the Department has adopted, individual
performance incentives and the potential fees associated with those incentives, are the only performance-
based management contracting mechanism to reward contractors for their performance. Thus, it seems that
any pattern of concern regarding the efficacy and application of individual performance incentives, such as
that raised in our report, goes to the core of the Department's current program.

To its credit, the Department has incorporated performance measures in its major contracts. However, the
more important question is whether the Department can demonstrate that the current system of
performance-based contracting has resulted in improvements in contractor performance and that the
benefits resulting from these improvements are worth the additional cost. Despite concerted efforts by
procurement officials, based on this and other recent reviews, we believe that more needs to be done in this
area. We reach this conclusion with the recognition that executing an effective performance-based
contracting program in the Department of Energy setting is a challenging task.

Management comments and the Office of Inspector General response are more fully discussed on page 11
of the report.

Attachment
cc: Deputy Secretary
   Administrator, National Nuclear Security Administration
   Under Secretary for Energy, Science and Environment
USE OF PERFORMANCE-BASED INCENTIVES AT SELECTED
DEPARTMENTAL SITES


TABLE OF
CONTENTS


                Overview

                Introduction and Objective .................................................................... 1

                Conclusions and Observations .............................................................. 1


                Use of Performance-Based Incentives

                Details of Finding .................................................................................. 4

                Recommendations and Comments ...................................................... 10


                Appendices

                1. Related Office of Inspector General Reports ................................ 14

                2. Additional Examples of Recurring Performance-Based
                   Incentives and Modified Performance Expectations ..................... 15

                3. Scope and Methodology ............................................................... 17
Overview

INTRODUCTION AND   The Department of Energy (Department) contract reform effort began
OBJECTIVE          in 1993 with the establishment of a team to review the Department’s
                   contracting practices and provide recommendations for improvement.
                   In its February 1994 report, the team recommended the use of
                   performance-based management contracting for future contract awards.
                   It also recommended the use of an incentive fee approach in which an
                   identified element of the contractor’s profit would be tied to the
                   achievement of specific technical performance objectives, delivery
                   schedules, or cost control objectives. Under such “performance-based
                   incentives,” the fees paid to the contractor should bear a direct
                   relationship to contractor performance and require that each incentive
                   have objective performance metrics and an objective evaluation of
                   contractor performance.

                   Office of Inspector General (OIG) reports issued since 1997 have
                   identified problems in implementing performance-based management
                   contracting practices. Specifically, incentive fees were paid for work
                   that had already been completed and performance expectations were
                   established that did not encourage and reward superior performance.
                   More recently, an audit of Incentive Fees for Bechtel Jacobs Company
                   LLC (DOE/IG-0503, May 2001) identified problems with objectives not
                   being established prior to the start of the performance period and
                   existing objectives not being met. A complete listing of related OIG
                   reports is included in Appendix 1.

                   In May 2000 the Secretary announced renewed efforts to improve
                   contractor performance. In accordance with this initiative and earlier
                   reforms, the Department expanded its use of incentive fees. Between
                   1998 and 2000, total available incentive fees increased from
                   $43 million to $62 million at the three field sites visited. This increase
                   included, in some cases, a reallocation of the total available fee from
                   base and award fees to performance-based incentive fees.

                   Given the importance of proper performance-based contract
                   management to the Department, the objective of the audit was to
                   determine whether the Department’s use of performance-based
                   incentive fees has resulted in improved contractor performance at
                   selected Departmental field sites.

CONCLUSIONS AND    The Department did not utilize performance-based incentives in a
OBSERVATIONS       manner that would consistently result in improved contractor
                   performance. Problems were identified with 12 of 19 performance-
                   based incentives selected for review at the Savannah River Site, the


Page 1                                                        Introduction and Objective/
                                                           Conclusions and Observations
         Kansas City Plant, and the Y-12 Plant located in Oak Ridge, TN. The
         dollar amounts of certain performance incentives were increased while
         the corresponding performance metrics remained the same. Other
         performance metrics were lessened, while the monetary incentive was
         left unchanged. Finally, some performance measures were established
         after the incentivized action had been completed. In each case, the
         Department was not able to provide a clear, documented rationale,
         based on past performance and changes in operating conditions, as to
         why the conditions occurred.

         Our review also indicated that field sites were not fully evaluating past
         contractor performance when negotiating recurring performance-based
         incentives and were using processes for modifying performance-based
         incentives that were originally designed to address award fee
         performance rather than incentive fee projects. Furthermore, the
         Department had not established a formal Program Office review and
         approval process to ensure that negotiated performance-based
         incentives would improve contractor performance. For the 12
         performance-based incentives with which we had concerns, the
         Department provided an additional $5.3 million from 1997 to 2000.
         Because these measures were not clearly structured to improve
         performance and because the Department’s rationale for the measures
         was not evident, we questioned whether the $5.3 million could have
         been better used to incentivize other work.

         The OIG fully recognizes the difficulty in implementing performance-
         based management contracting practices, including the shift away from
         base and award fees to the increased use of incentive fees. Department
         managers deserve credit for changes resulting in improvements to
         contract management. However, more remains to be done. The Office
         of Procurement and Assistance Management acknowledged, in a
         March 1999 report to the Secretary1, that the use of performance-based
         incentives has not always led to improved performance at all sites. In
         addition, the Secretary of Energy Advisory Board recently reported 2
         that “while substantial progress has been made with performance-based
         management and other DOE management initiatives, there is no
         comprehensive corporate approach to implementation, and as a result,
         policies and methods are not consistently implemented DOE-wide.”

         ___________________________
         1
           Follow-Up Assessment of the Effectiveness of Actions Taken to Improve
         Performance-Based Incentives in Performance-Based Management and Management
         and Integration Contracts, March 31, 1999.
         2
           White Paper on Performance-Based Management, December 8, 2000.



Page 2                                           Conclusions and Observations
         To further enhance the implementation of the Department’s
         performance-based contracting approach, management should consider
         the issues discussed in this report when preparing the yearend assurance
         memorandum on internal controls.



                                       _______(Signed)_________
                                       Office of Inspector General




Page 3                                         Conclusions and Observations
USE OF PERFORMANCE-BASED INCENTIVES

Performance-Based   Performance-based incentives for Department contractors were not
Incentives          clearly structured in a manner that would result in improved contractor
                    performance. Problems were identified with 12 (63 percent) of the 19
                    performance-based incentives reviewed at the Savannah River Site, the
                    Kansas City Plant, and the Oak Ridge Y-12 Plant. There was not a
                    clear rationale to support the fee amounts associated with certain
                    performance metrics considering past performance and changes in
                    operating conditions.

                                   Recurring Performance-Based Incentives

                    Recurring performance-based incentives relate to those areas or
                    activities that are incentivized from one year to the next. Because
                    performance-based incentives are a tool for achieving improved
                    contractor performance, recurring incentives should be structured to
                    realize that goal. For example, where a contractor has historically
                    performed at an acceptable level and in the absence of changes in
                    operating conditions, an increase in available incentive fee should be
                    accompanied by an increase in performance metrics. Conversely, a
                    decrease in performance metrics should be accompanied by a decrease
                    in available incentive fee.

                    However, our analyses indicated that some recurring performance-
                    based metrics remained the same or decreased, while available
                    incentive fee either increased or remained the same. In these cases,
                    there was no evidence associated with the performance-based incentive,
                    to show that there was a need to provide additional incentives to either
                    improve contractor performance or compensate for changes in
                    operating conditions. To illustrate:

                    •   The Savannah River Site incentivized the production of high-level
                        waste canisters at the Defense Waste Processing Facility. The
                        annual performance metric since Fiscal Year (FY) 1998 had been
                        the production of 250 canisters. In FY 2000, the Savannah River
                        Operations Office (Savannah River) increased the available
                        incentive fee by $500,000 for this activity, but did not increase the
                        corresponding performance metric.

                    •   The Kansas City Area Office (Kansas City) incentivized the timely
                        delivery of non-First Production Unit weapon components. Kansas
                        City increased the available incentive fee by $1.5 million from




Page 4                                                                    Details of Finding
             FYs 1997 to 2000, even though the performance metric remained
             essentially the same (an on-time delivery rate of at least
             99.6 percent).

         •   At Y-12, the Department’s Area Office incentivized the off-
             loading of Safe-Secure Transport vehicles. From FYs 1999 to
             2000, the Area Office increased the available incentive by
             $213,000, while loosening the performance metric from 4 days to
             5 days. This occurred despite the contractor’s demonstrated past
             performance of unloading the vehicles in an average of 2.1 days in
             FY 1999.

         Additional examples of recurring performance-based incentives that we
         questioned are included in Appendix 2.

         During our review, the field sites identified various factors that affected
         the changes in incentive fee. These factors included difficulty and
         complexity of weapons component production, risks associated with
         treatment of undetermined chemical types, and reductions in staffing.
         For example, the Y-12 Area Office stated that a deliberate decision was
         made by the Department to relax the performance-based incentive for
         the Safe-Secure Transport project from 4 days to 5 days due to the
         anticipated need to place resources on the off-loading of a new type of
         transport vehicle arriving with the Safe-Secure Transports. In other
         cases, field sites explained that the increase in available incentive fees
         was created by a reallocation of the contractor’s base fee to incentive
         fee projects and the Department’s campaign to transfer fee dollars from
         the award fee pool to the incentive fee pool.

         We recognize that certain operating conditions for individual projects
         can affect the achievement of performance objectives. However, the
         supporting documentation provided by the field sites did not
         substantiate that these factors were carefully considered and evaluated
         during incentive fee negotiations with the contractor prior to approving
         their Performance Evaluation and Measurement Plans. Specifically, the
         rationale and explanation provided for individual performance-based
         incentive fees did not explain why the field sites negotiated an
         increased incentive fee for the contractor without a change in
         performance metrics, what impact the probable operating conditions
         would have on achieving the performance metrics, and how the
         increased fee amount was calculated for individual performance-based




Page 5                                                          Details of Finding
         incentives. In addition, none of the responses supported a field site
         evaluation and comparison of the contractor's previous performance
         metrics and incentive fee when the new incentive fees were negotiated.
         Moreover, in our judgment, a simple reallocation from base fee and
         award fee pools to individual performance-based incentives is not, by
         itself, a sufficient basis for increasing the available fee associated with
         those incentives. Rather, management should determine, through a
         rational, analytic, and documented process, the best way to allocate fee
         with the express goal of improving performance.

                         Reductions in Performance Expectations

         In some cases, performance expectations were reduced during the year
         without an adjustment to the available incentive fees. Performance-
         based incentives consist of certain variables, including schedule and
         scope of work. The initial estimates for these variables become the
         project performance expectations. Increasing the time allowed to
         complete a project or decreasing the scope of work to be performed is
         considered a reduction in project performance expectations. We would,
         therefore, expect a corresponding reduction in the available incentive
         fee. Alternatively, the record should include a documented rationale
         for not adjusting the available incentive fee. However, this was not
         always the case. For example:

         •   The Savannah River Site issued a baseline change proposal that
             eliminated two milestones from a performance-based incentive for
             capital equipment and general plant projects. The original
             performance metric required that at least 90 percent of milestones
             be completed in order to earn the total available incentive fee of
             $500,000. Completing less than 90 percent of milestones would
             earn the contractor $300,000. Even though the baseline change
             proposal eliminated two milestones, there was no adjustment to the
             available incentive fee.

         •   Kansas City changed a performance metric subsequent to the
             delivery date for Safeguard Transport vehicles. In July 1999,
             Kansas City approved a change to the performance evaluation plan
             that extended the delivery dates for three Safeguard Transport
             vehicles. The original delivery dates ranged from December 1998
             to April 1999. The information provided by Kansas City did not
             involve a documented rationale for the adjustments to performance




Page 6                                                          Details of Finding
                        metrics. Even though the extension was approved after the original
                        delivery dates had passed, there was no adjustment in the available
                        incentive fee of $240,000 ($80,000 per vehicle).

                    •   At Y-12, the Area Office negotiated a performance-based incentive
                        that required a laboratory purification facility be established by
                        completing two required milestones. The performance-based
                        incentive was established through a baseline change proposal
                        approved in July 1999. However, the contractor actually completed
                        the two required milestones in April and May 1999, respectively.
                        Thus, the Department paid $144,000 in incentive fee for work that
                        was already completed.

                    Additional examples of modified performance expectations are
                    included in Appendix 2.

Performance-Based   The Department’s policy is to maximize contractor performance. In
Management Policy   1998, the Office of Procurement and Assistance Management
                    (Procurement) issued a Performance-Based Contracting Guide, which
                    stated that incentives can be used to motivate a contractor to achieve
                    higher levels of performance. Similarly, Procurement issued a 1999
                    report to the Secretary of Energy stating that the true measure of the
                    effectiveness of performance-based incentives is in improvements in
                    contractor performance. In addition, the Department’s Acquisition
                    Guide, which incorporated the Performance-Based Contracting Guide,
                    identifies the roles and responsibilities of both Headquarters
                    Procurement and field site managers for reviewing and approving
                    performance-based incentives.

                    In responding to this report, Procurement officials emphasized that, in
                    their view, the goal of performance-based incentives is to improve
                    contractor operations over the entire spectrum of the contract. Further,
                    they believe that an evaluation of overall contract performance cannot
                    be made by looking at individual incentives. While we acknowledge
                    that no specific policy requires recurring incentives to facilitate
                    improved performance, the overall purpose of performance-based
                    contracting is to enhance the operations of the Department’s contractors
                    over time. The performance-based incentives that are incorporated into
                    major contracts provide the primary mechanism for achieving that goal.
                    In the absence of a compelling alternative means of encouraging and
                    evaluating performance, we would expect that each performance-based
                    incentive would be structured in a manner that would facilitate long-
                    term improvements in contract operations.




Page 7                                                                  Details of Finding
Performance-Based      In conducting the audit, we found that field sites did not fully evaluate
Incentive Review and   past contractor performance when negotiating recurring performance-
Approval               based incentives. In addition, modifications to performance
                       expectations were controlled through baseline change proposal
                       processes originally designed to address award fee performance rather
                       than incentive fee projects. Also, at Headquarters, Program Offices had
                       not established a formal review and approval process to ensure that
                       negotiated performance-based incentives would improve contractor
                       performance.

                                     Evaluation of Past Contractor Performance

                       Each year field sites negotiate Performance Evaluation and
                       Measurement Plans which contain contractor performance objectives,
                       expectations, and incentive fees. Field site personnel indicated they
                       consider various factors when negotiating performance metrics and
                       available fee for recurring performance-based incentives. Such factors
                       included changes in budget and resources and the level of difficulty in
                       achieving the performance expectation. However, none of the
                       documentation supporting the recurring performance-based incentives
                       described any evaluation or consideration of improvements in
                       contractor performance from one year to the next. Also, the
                       performance-based incentive documentation did not identify and
                       explain year-to-year changes of the performance metrics and the
                       incentive fee available to the contractor.

                       In some cases, contractors successfully resisted Department attempts to
                       strengthen performance metrics. For example, Kansas City officials
                       stated that they were unsuccessful in trying to reduce the available
                       incentive fee while keeping the performance metrics the same on a
                       recurring performance-based incentive because they had to negotiate
                       with the contractor and the contractor would not agree to it. Kansas
                       City officials also stated that as a “concession” to the contractor
                       agreeing to the elimination of base fee from the Kansas City Plant
                       contract, the Albuquerque Operations Office reallocated approximately
                       75 percent of the base fee to incentive fee. Some of the reallocated base
                       fee was applied to recurring performance-based incentives where the
                       metrics were not increased to improve contractor performance.




Page 8                                                                      Details of Finding
                          Field Site Change Proposal Processes

         At all three locations, modifications to performance expectations by
         field site personnel were controlled through baseline change proposal
         processes. These processes were designed to address award fee
         performance rather than incentive fee projects, and they did not address
         the impact of work scope changes on incentive fee when individual
         performance expectations were modified. It should be noted that
         changes to award fee performance expectations do not affect the
         available award fee because of the subjective nature of the evaluation
         process. In contrast, performance-based incentives involve an objective
         evaluation of contractor performance, and a reduction in project
         performance expectations should result in a corresponding reduction in
         the available incentive fee. Despite this inherent difference, none of the
         field sites assessed the impact on available incentive fee when
         modifying performance metrics. In addition, there appeared to be no
         standard, documented means by which approved modifications were
         incorporated into the performance-based incentive system.

                   Headquarters Program Office Review and Approval

         Headquarters Program Offices also were not actively involved in
         ensuring that field site recurring performance-based incentives
         improved performance. Review requirements were not established for
         Program Offices, and the reviews that were conducted did not consider
         past contractor performance.

         The Department’s Acquisition Guide instructs field sites to submit
         performance-based incentives to Headquarters Procurement for their
         review and approval. However, there was no such requirement for
         review and approval by Headquarters Program Offices even though
         they fund the Department’s field activities. While Procurement has
         requested that Program Offices participate in these reviews, many were
         not performing formal reviews of Performance Evaluation and
         Measurement Plans. Program Offices utilized an informal process to
         evaluate individual performance-based incentives and orally conveyed
         review comments. Field site personnel acknowledged that they had not
         received formal Program Office comments on their performance-based
         incentives, with one site characterizing its Program Office as being
         disengaged and having very little communication and ownership of the
         performance-based incentives.




Page 9                                                         Details of Finding
                         While Program officials agreed that performance-based incentives
                         should be used to improve contractor performance, their reviews did not
                         formally evaluate this aspect of performance. Headquarters Program
                         Office personnel acknowledged that they were not aware of past fees
                         paid to contractors when they evaluated draft Performance Evaluation
                         and Measurement Plans. Their reviews instead were limited to ensuring
                         that field site performance-based incentives specifically addressed
                         annual Program Office project priorities. Thus, Program officials could
                         not provide assurances that proposed performance-based incentives
                         were structured in a manner that would result in contractor
                         improvement.

Achieving the Benefits   Increasing available fee without a corresponding increase in the
of Performance-Based     contract performance expectations, or decreases in the expectation
Management               without an adjustment of the fee, in our judgment, is contrary to the
                         express goal of the Department’s contract reform effort. Through this
                         effort the Department has sought to motivate contractors to employ
                         innovative business practices and reduce or avoid costs where possible.
                         However, performance incentives that do not raise performance
                         expectations (i.e., raise the bar) undercut the goal of fostering
                         improvement in Departmental operations.

                         For particular performance-based incentives examined as a part of this
                         audit, $4.4 million was provided without a demonstrated reciprocal
                         benefit of improved contractor performance. In addition, Department
                         contractors were provided incentive fees of $911,000 for FYs 1999 and
                         2000 for performance-based incentive expectations that had been
                         eliminated or substantially reduced through baseline change proposal
                         modifications.

RECOMMENDATIONS          We recommend that the Acting Director, Management and
                         Administration, in consultation with the Program Offices, revise the
                         Department’s Acquisition Guide to:

                            1. Require that field sites evaluate:

                                     (a) Year-to-year changes in the available incentive fee in
                                         relation to negotiated performance metrics for
                                         improving contractor performance, including:




Page 10                                                                     Recommendations
                                                                               and Comments
                                  •    Identifying what, if any, changes in operating
                                       conditions will impact incentive fees or performance
                                       metrics; and

                                  •    Documenting the analytical support for how those
                                       operating conditions affect the achievement of
                                       negotiated performance-based incentive fees and
                                       performance metrics.

                             (b) The impact on available incentive fee resulting from
                                 modifications to performance expectations. The evaluation
                                 should be included on a formal performance-based
                                 incentive change-control document.

                         2. Require the Headquarters Program Offices to:

                             (a) Review field site performance-based incentives, including a
                                 determination that individual incentives, especially those of
                                 a recurring nature, are structured in a manner that will
                                 improve contractor performance; and

                             (b) Approve field Performance Evaluation and Measurement
                                 Plans prior to providing the final negotiated plan to the
                                 contractor.

                      We recommend that the Acting Assistant Secretary for Environmental
                      Management and the Acting Deputy Administrator for Defense
                      Programs develop and implement Program Office specific guidance
                      that incorporates the above recommended revisions to the Acquisition
                      Guide.


MANAGEMENT REACTION   Management provided written comments to a draft of this report. We
                      also met with management representatives to further discuss the issues
                      raised and the examples cited.

                      Management disagreed with the premise supporting the objective of this
                      audit, which was to determine whether the Department’s use of
                      performance-based incentive fees had resulted in improved contractor
                      performance at selected sites. Specifically, they asserted that it is not
                      the Department’s policy to require that individual performance-based
                      incentives improve contractor performance. Management stated that in
                      many cases the performance-based incentive fee amount is used to
                      compensate the contractor for performance of baseline level work.

Page 11                                                                  Recommendations
                                                                            and Comments
                   Further, they believed that the reallocation of base and award fee to
                   performance incentive fees was adequate justification for increasing the
                   incentive fee without increases in performance metrics. They also
                   asserted that we took their statements regarding improved contractor
                   performance out of context. Specifically, management believes that the
                   goal of performance-based incentives is to improve contractor
                   performance over the entire spectrum of the contract. Management
                   does not believe that it was appropriate to evaluate the overall success
                   of performance-based incentive contracts by looking at individual
                   incentives.

                   Accordingly, management did not concur with the audit
                   recommendations. Essentially, they believed that the problems this
                   audit identified were documentation issues and that the
                   recommendations should focus only on improving documentation.
                   Specifically, management did not believe that it was necessary at this
                   time to revise the Acquisition Guide. They believed that the field sites
                   were already required to conduct the evaluations we recommended.
                   Management did, however, state that they would review existing policy
                   and determine whether it adequately ensured that field sites documented
                   their evaluations of contractor performance, shifting priorities, and
                   year-to-year changes in available incentive fee and performance
                   metrics. They also disagreed with the conclusion that there is no
                   requirement for Headquarters Program Office participation in the
                   performance-based incentive process. They believe that Program
                   Office review and concurrence with the plans is a routine policy and
                   practice.


AUDITOR COMMENTS   As evidenced by management’s comments, there was a fundamental
                   disagreement regarding the purpose of performance-based incentives.
                   The use of performance-based incentives was a product of
                   Performance-Based Management Contracting, which resulted from
                   Contract Reform. All of these efforts sought to improve contractor
                   performance.

                   We recognize that the Department’s policy does not specifically require
                   each specific performance-based incentive to improve contractor
                   performance. However, because contract reform sought to use
                   performance-based incentives as a tool for improving overall contractor
                   performance, we believed that it was relevant to determine whether this
                   tool was being used effectively to improve contractor performance over
                   a span of time. Accordingly, we focused our efforts on determining



Page 12                                                               Recommendations
                                                                         and Comments
          whether contractor performance was improving in recurring
          performance-based incentives, i.e., whether it was apparent that
          contractors were improving their performance from a baseline in the
          first year over succeeding years of performance.

          During this audit, management acknowledged that they have not
          identified a way to determine whether or not performance-based
          incentive fees are improving contractor performance over the spectrum
          of the entire contract effort. We believe that a reasonable approach is to
          review how the performance fees and metrics have evolved over a
          period of time for a specific body of work. However, we also recognize
          the possibility that a given performance metric may be subject to
          unusual circumstances. We would expect that such circumstances
          would be fully explained and documented.

          In order to achieve the overall goal of Performance-Based Management
          Contracting – improved contractor performance – changes to metrics
          and incentive fees should, in our opinion, be supported by an analysis
          that shows an evaluation of changes in operating conditions and past
          contractor performance. Further, such analyses should be completed
          prior to negotiations with the contractor. We noted that analytical
          support of this type was not evident during our fieldwork for the
          examples we cited in our report.

          Regarding management’s position pertaining to the reallocation of base
          and award fees, we believe that such reallocations should consider how
          the available fee can be used to improve performance. For example,
          management should consider whether the contractor is already
          functioning at an acceptable baseline level. If the contractor is, then the
          available fee could be used as an incentive to reduce the cost of baseline
          work, or be applied to other work. In conducting our fieldwork, we did
          not see evidence that these aspects were considered.




Page 13                                                        Recommendations
                                                                  and Comments
Appendix 1


                    RELATED OFFICE OF INSPECTOR GENERAL REPORTS


  Inspection of Selected Aspects of the Office of River Protection Performance-Based Incentive Program,
  (DOE/IG-0506, June 2001). Performance-based incentives awarded by the Office of River Protection (1)
  did not always challenge the contractor to achieve higher levels of performance; (2) did not specify
  formal quality acceptance criteria; and (3) did not document the rationale for establishing these fees.

  Incentive Fees for Bechtel Jacobs Company LLC, (DOE/IG-0503, May 2001). The Oak Ridge
  Operations Office eliminated performance objectives in FY 1998, did not finalize performance objectives
  before the start of FY's 1999 and 2000, and modified performance objectives to reduce expectations
  during each year.

  Performance Incentives at the Idaho National Engineering and Environmental Laboratory,
  (WR-B-00-05, April 2000). Performance-based incentives at the Idaho National Engineering and
  Environmental Laboratory resulted in: (1) performance that either declined or was unchanged or could
  not be directly linked to actions taken by the contractor, and rewarded process rather than outcome; and
  (2) improvement that was overstated or was compensated twice.

  Inspection of the Fiscal Year 1996 Performance Based Incentive Program at the Savannah River
  Operations Office, (INS-0-98-03, May 1998). The Savannah River Operations Office had incentives that
  were not clearly stated and paid excessive fees.

  Contractor Incentive Program at the Nevada Operations Office, (DOE/IG-0412, October 1997). The
  Nevada Operations Office performance incentives were vague, could not be validated, and were
  implemented after the performance period had been completed.

  Contractor Incentive Program at the Rocky Flats Environmental Technology Site, (DOE/IG-0411,
  August 1997). DOE's performance incentives at Rocky Flats did not always include clearly defined
  criteria, were not structured to encourage superior performance, and were often process-oriented.

  Inspection of Performance Based Incentive Program at the Richland Operations Office, (DOE/IG-0401,
  March 1997). The DOE Richland Operations Office paid excessive incentive fees; paid fees for work
  that was accomplished prior to the establishment of the incentive program; paid fee for work that was
  easily achieved by the contractor; and paid fee in an instance where quality and safety were
  compromised by the contractor in order to achieve an incentive fee.




Page 14                                                                       Related Office of Inspector
                                                                                       General Reports
Appendix 2


      ADDITIONAL EXAMPLES OF RECURRING PERFORMANCE-BASED INCENTIVES
                  AND MODIFIED PERFORMANCE EXPECTATIONS


                                Recurring Performance-Based Incentives


•   Savannah River incentivized the treatment (incineration) of Plutonium/Uranium Extraction Solvent
    (PUREX) waste at the Consolidated Incineration Facility. Savannah River increased the available
    incentive fee by $350,000 from Fiscal Year (FY) 1998 to 1999, even though the performance metric
    decreased from treating 2.7 million pounds of PUREX waste to treating 2.6 million pounds of waste.

•   Savannah River incentivized the processing of low-level radioactive waste in storage (legacy waste).
    Processing this legacy waste provided the contractor with the opportunity to earn $600,000 in available
    incentive fee each year. However, in FY 2000 the quantity of legacy waste required to be processed
    decreased by 1,400 cubic meters (41 percent), while the available incentive fee remained the same. The
    available incentive fee could have been reduced by $246,000 to correspond with the same percentage
    reduction in the performance metric.

•   Kansas City incentivized the achievement of a specific number of First Production Unit weapon
    component milestones. Kansas City increased the available incentive fee by $975,000 from FY 1999 to
    2000, even though the performance metric remained virtually the same (the achievement of eight
    milestones in FY 1999 versus nine in FY 2000).

•   Kansas City incentivized the contractor to maintain a high level of safety performance. Kansas City
    provided $610,000 of available incentive fee from FY 1998 to 2000 while loosening the performance
    metrics or keeping them the same for selected components of the performance-based incentive. This
    occurred despite the contractor's demonstrated performance of having one of the best safety records in
    the Department. A total available incentive fee of $350,000 was questioned for those areas where
    performance metrics were loosened while the incentive fees remained the same ($190,000) and where
    the performance metrics remained the same but the incentive fees increased ($160,000).

•   Kansas City incentivized the on-time delivery of special production weapon components. Kansas City
    increased the available incentive fee by $240,000 from FY 1999 to 2000 without a corresponding
    increase in the performance metric (of at least 99.6 percent for on-time delivery).




Page 15                                                                              Additional Examples
                                Performance Expectation Modifications

•   The Kansas City Area Office changed a performance-based incentive that incentivized the achievement
    of a specific number of First Production Unit weapon component milestones. The change extended the
    delivery date for the W87 component's new build qualification from August to September 2000. There
    was no adjustment in the available incentive fee of $300,000 for this milestone.

•   The Y-12 Plant Area Office established a performance-based incentive that required the contractor to
    produce two W87 Joint Test Assemblies (Assemblies). The performance-based incentive was
    established through a baseline change proposal approved by the Area Office in July 1999. However, the
    contractor actually completed the two assemblies in October 1998, nine months prior to the change
    proposal. As a result, the Area Office paid the contractor $27,000 in incentive fee for work that was
    already completed and without any adjustment to the incentive fee amount.




Page 16                                                                            Additional Examples
Appendix 3

SCOPE         The audit was performed from July 2000 to February 2001 at
              Department Headquarters in Washington, DC and Germantown, MD.
              Field site visits were made to the Savannah River Site in Aiken, SC; the
              Kansas City Plant in Kansas City, MO; and the Y-12 Plant in Oak
              Ridge, TN.


METHODOLOGY   To accomplish the audit objective we:

                  •   Reviewed prior OIG reports related to performance-based
                      management contracting, specifically those relating to
                      performance-based incentives, at the Department’s for-profit
                      contractors;

                  •   Reviewed Departmental policy on performance-based
                      management contracting, specifically that relating to
                      performance-based incentives;

                  •   Held discussions with Headquarters personnel from the Office
                      of Management and Administration, Office of Environmental
                      Management, and the Office of Defense Programs.

                  •   Selected three Departmental field sites based on contract value
                      and the substantial number of performance-based incentives.

                  •   Selected a judgmental sample of performance-based incentives
                      for FYs 1997-2000.

                  •   Examined field site Performance Evaluation and Measurement
                      Plans, performance-based incentive documents and related
                      information for FYs 1997-2000.

                  •   Held discussions with field site contracting and program
                      personnel.

                  •   Evaluated the Department’s implementation of the Government
                      Performance and Results Act of 1993 related to the
                      establishment of performance standards or measures for
                      performance-based incentives.




Page 17                                                    Scope and Methodology
          We conducted the audit in accordance with Generally Accepted
          Government Auditing Standards for performance audits and included
          tests of internal controls and compliance with laws and regulations to
          the extent necessary to satisfy the audit objective. Because our review
          was limited, it would not necessarily have disclosed all internal control
          deficiencies that may have existed at the time of our audit. The
          Department had not established performance standards or measures
          specifically relating to performance-based incentives. Therefore, we
          were unable to assess the effectiveness of the performance measures
          that might have been used. We did not rely on computer-processed data
          to accomplish the audit objective. Therefore, we did not assess the data
          reliability.

          We held an exit conference with officials on July 2, 2001.




Page 18                                                Scope and Methodology
                                                                           IG Report No. : DOE/IG-0510

                                    CUSTOMER RESPONSE FORM


The Office of Inspector General has a continuing interest in improving the usefulness of its products. We
wish to make our reports as responsive as possible to our customers' requirements, and, therefore, ask that
you consider sharing your thoughts with us. On the back of this form, you may suggest improvements to
enhance the effectiveness of future reports. Please include answers to the following questions if they are
applicable to you:

1. What additional background information about the selection, scheduling, scope, or procedures of the
   audit would have been helpful to the reader in understanding this report?

2. What additional information related to findings and recommendations could have been included in this
   report to assist management in implementing corrective actions?

3. What format, stylistic, or organizational changes might have made this report's overall message more
   clear to the reader?

4. What additional actions could the Office of Inspector General have taken on the issues discussed in this
   report which would have been helpful?

Please include your name and telephone number so that we may contact you should we have any questions
about your comments.

Name _____________________________             Date __________________________

Telephone _________________________            Organization ____________________

When you have completed this form, you may telefax it to the Office of Inspector General at
(202) 586-0948, or you may mail it to:

                                     Office of Inspector General (IG-1)
                                           Department of Energy
                                          Washington, DC 20585

                                        ATTN: Customer Relations

If you wish to discuss this report or your comments with a staff member of the Office of Inspector General,
please contact Wilma Slaughter at (202) 586-1924.
The Office of Inspector General wants to make the distribution of its reports as customer
    friendly and cost effective as possible. Therefore, this report will be available
       electronically through the Internet at the following alternative addresses:


             Department of Energy Office of Inspector General Home Page
                               http://www.ig.doe.gov


           Your comments would be appreciated and can be provided on the
                  Customer Response Form attached to the report.
